APPENDIX A

APPENDIX A
2020IL 125091

IN THE

SUPREME COURT
OF

THE STATE OF ILLINOIS

(Docket No. 125091)

THE PEOPLE OF THE STATE OF ILLINOIS, Appellant, v.
JOSEPH A. HOLLAHAN,Appellee.
Opinionfiled September 24, 2020.

JUSTICE KARMEIER delivered the judgment ofthe court, with opinion.

Chief Justice Anne M. Burke and Justices Kilbride, Garman, Theis, Neville,
and Michael J. Burke concurred in the judgment and opinion.

OPINION

11

The overarching issue in this appeal is whether the circuit court committed

reversible error when, after the jury had retired to deliberate, the court granted the
jury's request to review a video recording in evidence but played the video for the
jury in the courtroom with the court, parties, and alternate jurors present. A divided
appellate court answered that question in the affirmative.2019 IL App(3d)150556.

1a

We allowed the State's petition for leave to appeal (111. S. Ct. R. 315 (eff. July 1,
2018))and now reverse the judgment ofthe appellate court.
H2

H3

Tf 4

BACKGROUND

The defendant, Joseph A. Hollahan, was charged in the circuit court of
Kankakee County with the offense ofaggravated driving while under the influence
of alcohol. 625 ILCS 5/11-501(a)(2), (d)(1)(A), (d)(2)(A) (West 2008).
Defendant's initialjury trial ended in a mistrial when a video recording ofthe traffic
stop was inadvertently played beyond the point of admissible evidence, exposing

the jury to inadmissible evidence.

During defendant's second jury trial, a redacted video of the traffic stop was

played for the jury.' The video depicted the maimer of defendant's driving prior to

the traffic stop and his interaction with the officer immediately after the stop,
including field sobriety tests. Following the presentation of evidence, closing
arguments, and instruction as to the applicable law, the jury retired to deliberate.
Shortly thereafter, the jury asked to watch the video of defendant's traffic stop
again. The trial court, in the exercise of its discretion, granted that request. The

video was shown to the jury in the courtroom because the court did not have the
"arrangement" necessary to allow thejury to view the video in thejury deliberation
room. The court decided to allow defendant, the attorneys for defendant and the

State, and two alternate jurors to remain in the courtroom while the jury watched

the video. Defense counsel did not object to that procedure.^ Before the jury was

brought back into the courtroom, the court admonished defendant, the attorneys,
and the alternatejurors that the jury would be watching the video and that "[n]o one
will have any conversation." When the jury was brought back into the courtroom,

the trial court addressed thejurors, stating:

"Please come in and have a seat, we will not be talking to you other than to get
the video, period. *** The jury has requested to see the video again. We do not
have an arrangement to show it to you in your deliberation room. I have

'The evidence adduced at defendant's second trial is set forth in the appellate court's opinion

(2019 IL App(3d) 150556). As it is not relevant to our disposition, we do not reiterate it here.

^When the trial judge advised defense counsel,"Right now we need to bring the jury in, they

want to see the video," defense counsel simply responded,"Okay," without further comment.

2a

instructed everyone to not say a word and we will play the video for you. If you
need to have the sound adjusted or anything that we can do, all right?"

5

After watching the video,thejury returned to thejury room to resume deliberations.
Less than an hour later, the jury found defendant guilty.

On appeal, defendant asked the appellate court to find the procedure employed
by the circuit court to be plain error, as defendant did not object to it at the time or
raise it as an issue in a post-trial motion. The appellate majority concluded that the
procedure did indeed constitute structural error—^necessarily second-prong plain
error. 2019 IL App (3d) 150556,f 29. The majority acknowledged that appellate
panels had declined to find reversible error under similar circumstances in three

If 6

prior decisions. See, e.g.. People v. Lewis,2019 IL App(4th) 150637-B, 97-100
(finding no error where the trial court allowed a 911 recording to be replayed for
the jury in the courtroom in the presence of the parties after deliberations had
begun); People v. Johnson, 2015 IL App (3d) 130610, 20-21 (finding no
prejudicial error where the trial court refused to allow thejury to take a surveillance
videotape into the jury room and instead had the jury review the video in the
courtroom in the presence of the judge, the defendant, the state's attorney, and
defense counsel); People v. Rouse,2014 IL App(1st) 121462,fif 78-79(finding no
error where the trial court allowed the jury to review surveillance footage in the
presence of both parties and the trial judge, cautioning the jury not to engage in
deliberations or discussions while in the courtroom). The majority believed those
decisions were vwongly decided and declined to follow them. 2019 IL App (3d)
150556,1123.

The majority noted that, in Johnson and Rouse, those appellate panels, in
finding no error, relied principally upon two factors:(1)the third parties who were
present when the video was replayed for the jury were instructed not to
communicate with the jurors while the video was being played {Johnson, 2015 IL
App (3d) 130610, If 20), and they made no attempt to do so {id.-, see also Rouse,
2014 IL App (1st) 121462, If 79), and (2)after reviewing the video in the
courtroom, the jurors returned to the jury room where they resumed private and
unfettered deliberations {Johnson,2015 IL App(3d) 130610,If 20; Rouse,2014 IL
App (1st) 121462,If 79). 2019 IL App(3d) 150556,If 23.

3a

H7

The majority, here, believed neither ofthose factors eliminated or mitigated the
prejudicial impact upon "deliberations" that occurred while thejurors were viewing

the video. Id. The majority stated:

"In each case, the jurors had no opportunity to discuss the video as they were
viewing it or to pause or replay any portions of the video that they found of
particular importance.(Indeed, in Rouse, the trial court instructed the jury that
they could not engage in any deliberations or have any discussions about what
they were watching while the recording was played.)Accordingly,in each case,
the procedure employed by the trial court directly impeded the jury's
deliberations. The mere fact that the jury could have discussed the video later
in the jury room is immaterial. In each case, the jury was prevented from
controlling the video, from freely discussing it, and from debating any issues
relating to the video while they were watching it." Id.

The majority added:

"[0]ur appellate court['s] decisions in Lewis, Rouse, and Johnson fail to

acknowledge that the mere presence of the trial judge, the parties, and their
attorneys duringjury deliberations improperly intrudes upon the privacy ofjury
deliberations and has an inherently intimidating and inhibiting effect upon such
deliberations.[Citations.] Such intrusions on thejurors' ability to freely discuss
and debate the evidence should be deemed presumptively prejudicial. See
Olano, 507 U.S. at 739 (acknowledging that '[tjhere may be cases' where an
intrusion upon jury deliberations by third parties 'should be presumed
prejudicial,' and ruling that such intrusions are prejudicial when they 'exert[]
a "chilling" effect' on the jurors or 'operate as a restraint upon the regular
jurors' freedom of expression and action.' (Internal quotation marks
H8

omitted.))." Mil 24.

The majority took issue, particularly, with the appellate court's decision in
Lewis. See id. Hlf 23-28. One notable point of disagreement concerned the Lewis
court's assessment of a "deliberating" jury's in-court review of evidence. The
majority stated:

"In Lewis,our appellate court went so far as to state that'[wjhen a deliberating
jury returns to the courtroom and, in the presence ofthe judge, the parties, the

4a

lawyers, and court personnel listens again, in silence, to an audio recording, the
jury does nothing different from what it did before, when the recording

originally was played.^(Emphasis added.)Lewis,2019IL App(4th) 150637-B,
198. However, a jury's viewing of a video recording during trial is critically
different from its viewing of that same recording during deliberations.''''
(Emphasis in original.)Id. f 25.

Again,citing the United States Supreme Court's decision in United States v. Olano,
507 U.S. 725 (1992), the appellate court stated the generic principle that, once
deliberations have begun, the jurors must be shielded from any outside influences
that improperly impede or inhibit their deliberations. 2019 IL App (3d) 150556,

f9

1125.

Justice Carter, dissenting, found no error at all, certainly no plain error. M 137
(Carter, J., dissenting). Citing this court's opinion in People v. Williams, 97 111. 2d
252,292(1983), he noted that whether evidentiary items should be taken to thejury
room during deliberations is a matter within the discretion ofthe trial court and the

trial court's decision on the matter is not reversed absent an abuse of discretion to

the prejudice of the defendant. 2019 IL App (3d) 150556, ^38 (Carter, J.,
dissenting). Citing, inter alia, the appellate court's opinion in Lewis, he observed,
"Similarly, the mode and manner in which a trial court allows a jury to review a
piece of evidence during jury deliberations falls within the scope of the court's
inherent authority to manage its courtroom and is a matter ofthe court's discretion."
Id. Justice Carter noted, with respect to the burden of the defendant in plain error
review: "[W]hen the issue is unpreserved—^as in the instant case—^the burden of
establishing prejudice remains on the defendant and does not shift to the State.
McLaurin, 235 111. 2d at 497-98; see also Olano, 507 U.S. at 740-41." Id. 1(40.
Applying those principles. Justice Carter would have concluded the defendant had
not shown that either the trial judge, the attorneys, the defendant, or the altemate
jurors engaged in a prejudicial communication with any juror about a matter
pending before the jury or that improper extraneous information reached the jury.
M f41. Thus, there was, in his view, no basis for reversal.

5a

110

f 11

^12

ANALYSIS

We begin our analysis with general principles of review applicable in this
context. "It is well-established that whether evidentiary items *** should be taken
to the jury room rests within the discretion of the trial judge, whose decision will
not be disturbed unless there was an abuse of discretion to the prejudice of the
defendant."Peop/e v. Hudson, 157 111. 2d 401,439(1993). Moreover,the trial court
has the discretion to grant or deny the jury's request to review evidence. People v.
Kliner, 185 111. 2d 81, 163 (1998).

Since defendant failed to preserve this issue for review via contemporaneous
objection and inclusion of the issue in a post-trial motion, we are concerned here
with plain error review. Illinois Supreme Court Rule 615(a)provides as follows:

"(a) Insubstantial and Substantial Errors on Appeal. Any error, defect,
irregularity, or variance which does not affect substantial rights shall be
disregarded. Plain errors or defects affecting substantial rights may be noticed
although they were not brought to the attention ofthe trial court."^

The plain error doctrine is applicable when

"'(1) a clear or obvious error occurred and the evidence is so closely balanced
that the error alone threatened to tip the scales ofjustice against the defendant,
regardless ofthe seriousness ofthe error, or(2)a clear or obvious error occurred

and that error is so serious that it affected the fairness of the defendant's trial

and challenged the integrity ofthe judicial process, regardless of the closeness

of the evidence.'"People v. Thompson, 238 111. 2d 598, 613 (2010)(quoting

If 13

People V. Piatkowski, 225 111. 2d 551, 565 (2007)).

Both sides ofthe divided appellate panel in this case cited the Supreme Court's
decision in Olano to support aspects oftheir respective positions. So,we begin with
a discussion of Olano and the principles espoused therein—^principles that this court
has determined are not significantly different from our own when it comes to plain
error review. See People v. Herron,215 111. 2d 167,186(2005)("[T]he plain-error
standard in *** Olano, *** at its core, "'** is the same standard we already use.
^Rule 52(b) of the Federal Rules of Criminal Procedure is the federal counterpart to our Rule

615(a).

6a

TI14

Ultimately, plain error involves the same considerations in federal and state
court."). We note that remedial application of the plain error doctrine is
discretionary in both the federal and state systems. See Olano, 507 U.S. at 732
("Rule 52(b) leaves the decision to correct the forfeited error within the sound
discretion of the court of appeals"); People v. Clark, 2016 XL 118845, T|42
("[R]emedial application ofthe plain error doctrine is discretionary.").

The claimed error in Olano concerned the presence of alternate jurors in the
jury room while the jury was deliberating. Federal Rule of Criminal Procedure
24(c)provided in pertinent part:"'An alternatejuror who does not replace a regular
jmor shall be discharged after the jury retires to consider its verdict.'"(Emphasis
omitted.) United States v. 0/o«o,934 F.2d 1425,1436(9thCir. 1991)(quoting Fed.
R. Grim. P. 24(c)). Because the defendants had not objected to the alternates'

presence during deliberations in their case, the court of appeals engaged in "plain
error" review pursuant to Rule 52(b). Id. The court relied on the "language of Rule
24(c), Rule 23(b), the Advisory Committee Notes to Rule 23, and related Ninth
Circuit precedent" to hold that Rule 24(c) barred alternate jurors from attending
jury deliberations unless the defendant, on the record, explicitly consented to their
attendance. Id. at 1436-37. The court of appeals found that Rule 24(c) was violated

because the district court did not obtain individual waivers from each defendant

personally, either orally or in writing. Id. at 1438. It then concluded that the
presenee of alternates in violation of Rule 24(c) was "inherently prejudicial" and
reversible per se. Id. at 1438-39. The court of appeals holding was premised upon

TI15

the concern that the alternate jurors might not have followed the district court's
prohibition on participation and, even if they did not participate orally, their
"attitudes" may have been"'conveyed by facial expressions, gestures or the like,
[and thus] may have had some effect upon the decision ofone or more jurors.'"Id.
at 1438 (quoting United States v. Virginia Erection Corp., 335 F.2d 868, 872(4th
Cir. 1964)).

The United States Supreme Court reversed thejudgment ofthe court ofappeals.
First, the Coiut equivocated as to whether there even was an "error" to be

considered pursuant to plain error review:

"•Rule 24(c) has since been amended to eliminate this requirement.

7a

"The presence of alternate jurors during jury deliberations is no doubt a
deviation from Rule 24(c). The Rule explicitly states:'An alternate juror who
does not replace a regular juror shall be discharged after the jury retires to
consider its verdict.' It is a separate question whether such deviation amounts
to 'error' when the defendant consents to the alternates' presence. The
Government supposes that there was indeed an 'error' in this case, on the
premise that Rule 24(c) is nonwaivable, see Reply Brief for United States 9,
n.4, and we assume without deciding that this premise is correct. The
Government also essentially concedes that the 'error' was 'plain.'"Olano,507
U.S. at 737.

Tl 16

Proceeding on the assumption that there was error, the Court then considered

whether the error

"'affect[ed] substantial rights' within the meaning of Rule 52(b), and
conclud[ed] that it did not. The presence of alternate jurors during jury
deliberations is not the kind of error that 'affect[s] substantial rights'
independent of its prejudicial impact. Nor have respondents made a specific
showing of prejudice. '•'** [W]e see no reason to presume prejudice here." Id.

f 17

The Court found that a showing of prejudice was required: "Assuming arguendo
that certain errors 'affec[t] substantial rights' independent of prejudice, the instant
violation of Rule 24(c) is not such an error." Id. The Court observed that it had
generally analyzed outside intrusions upon the jury for prejudicial impact, and it
saw no reason to deviate from that course in the case subjudice. Id. at 738-39.

The Court acknowledged,"[i]n theory, the presence of alternate jurors during
jury deliberations might prejudice a defendant in two different ways: either because
the alternates actually participated in the deliberations, verbally or through 'body
language'; or because the alternates' presence exerted a 'chilling' effect on the
regular jurors." Id. at 739. The Court observed that, if the alternates abided by the

trial court's instructions, neither of those scenarios would be cause for concern.
However, nonetheless, the Court concluded that the defendants—though required
to do so—had"made no specific showing that the alternate jurors in this case either

participated in the jury's deliberations or 'chilled' deliberation by the regular
jurors." Id.

8a

f 18

119

f 20

Thus, without deciding whether there was prerequisite error in allowing nonjurors(the alternates) to be present in the jury room while thejurors were actually
deliberating,the Supreme Court concluded, without a showing ofprejudice—either
through non-juror participation verbally or through "body language," or a "chilling
effect" on the regular jurors—^the defendant had not demonstrated plain, reversible
error. That"even if analysis still leaves open the question of whether the presence
of non-jurors, while video evidence is being replayed for the jurors in the
courtroom, is error at all.

In defendant's brief—long on the number of general propositions, short on indepth discussion of any—defendant cites cases for the proposition that other states
and federal courts allow deliberatingjmies to privately review admitted recordings
without restrictions or supervision. It is worth noting that the defendants in those
cases challenged the trial courts' actions in that regard and the trial courts' actions
were upheld after abuse-of-discretion review. Those cases do not stand for the
proposition that review by thejury must take place privately and without restriction,
only that it may.

State v. Castellanos, 935 P.2d 1353, 1355(Wash. 1997), cited by defendant, is
illustrative. Therein, the Supreme Court of Washington held the decision to allow
the jury unlimited access to body wire tape recordings of drug transactions and
playback equipment during deliberations was not an abuse of discretion. In
reaching that result, the court stated:
"[I]nS'to/e V. Frazier,99 Wash.2d 180,188,661 P.2d 126(1983)this court held
'a tape recorded statement of the defendant and a properly authenticated
transcript thereof may,within the sound discretion ofthe trial court, be admitted
as exhibits and reviewed by thejury during its deliberations.' At issue in Frazier
was a tape recording of an oral statement the defendant had previously given
the police. We stated 'such exhibits [may] go to the jury if, in the sound
discretion ofthe trial court, the exhibits are found to bear directly on the charge
and are not unduly prejudicial.' Id. at 189,661 P.2d 126. We concluded:

'It does not appear to us that the admission ofa tape recording as an exhibit,
in and of itself, overly emphasizes the importance of that evidence. Nor is
its admission in any way an impermissible comment on the evidence by the
judge. Since thejury could have refreshed its recollection ofthe contents of

9a

the tapedstatement by rehearing the tape in open court with the trialjudge's
permission ...we see no reason to automatically prevent thejuryfrom taking
such exhibits into thejury room. While trial courtjudges should continue to
be aware of the potential for overemphasizing the importance of such
evidence and should prevent such exhibits from going to the jury if unduly

prejudicial, we think that decision is best left to the sound discretion ofthe
trial judge.'"(Emphasis added.)Id.
The Castellanos court concluded:

^21
f 22

Tl 23

"We also noted steps taken by the trial court in Frazier to avoid undue
prejudice. These included allowing the taped statement to be admitted as ajury
exhibit without ftirther comment and without a playback machine. Id. at 191,
661 P.2d 126. This forced the jury to request additional replays ofthe tape, and
thus 'the trial court judge assured himself that he would be apprised of and
would retain some degree of control over the number of times the jury could
review that particular piece ofevidence.' Id. However we did not foreclose the
trial court from an alternative approach." Id.

In other words,the trial court could send the recording to thejury room without
restriction or supervision, but it was not required to do so.

In fact, as the State notes in its brief,two state supreme courts, after conducting
extensive surveys of cases in other jurisdictions, concluded—consistent with the
analysis in Lewis and Rouse—^that "[cjourts in other jurisdictions have *** found
no abuse of discretion by the trial court in allowing the jury to review or rehear
recorded evidence in open court" {State v. Davidson, 509 S.W.3d 156, 203(Tenn.
2016)),that it is, in fact,"universally accepted"that a trial court may allow thejury,
during deliberations, to return to open court to review a tape recording admitted in
evidence {State v. Hughes,691 S.E.2d 813, 826-27(W. Va. 2010)). See also State
V. Garland,942 N.W.2d 732(Minn. 2020).

Considering those authorities and the Supreme Court's analysis in Olano, we

find defendant has demonstrated no prejudice attributable to "clear or obvious

error"—for purposes of plain error review—in the way the trial court chose to
proceed in this case. As in Olano,this defendant has not shown that any non-jurors
in the courtroom participated "verbally"—^the trial court specifically advised those

10a

^ 24

^ 25

present that there would be "no conversation"—or through "body language." Nor
is there any indication that the presence of non-jurors "chilled" deliberation by the
regular jurors. The analysis of Olano, in circumstances arguably comparable to
those now before this court, requires a showing of prejudice by a defendant
claiming plain error; prejudice will not be presumed. This defendant has made no
showing of prejudice.

That assumes there even was error in the way the trial court proceeded. We do

not so find. Defendant assumes that "deliberations" were ongoing when the court

brought the jurors back into the courtroom and allowed them another viewing of
the video in the presence of non-jurors.

We reject that assumption as well. In that regard, we reject, specifically, the

notion that deliberations, once begun, carmot be suspended by the trial court.

Clearly, a court may,after submission ofthe ease to the jury, suspend deliberations
and bring the jury back into the courtroom for supplemental instruction, when
warranted, or even allow the jurors to separate temporarily outside the presence of
a court officer with proper admonishments. The latter is specifically provided for
by Illinois Supreme Court Rule 436(eff. July 1,1997), which states as follows:
"(a)In criminal cases, either before or after submission ofthe cause to the
jury for determination, the trial court may, in its discretion, keep the jury
together in the charge ofan officer ofthe court, or the court may allow thejurors
to separate temporarily outside the presence of a court officer, overnight, on
weekends, on holidays, or in emergencies.

(b) The jurors shall, whether permitted to separate or kept in charge of
officers, be admonished by the trial court that it is their duty(1)not to converse
with anyone else on any subject cotmected with the trial until they are
discharged;(2)not to knowingly read or listen to outside comments or news
accounts of the procedure until they are discharged;(3)not to discuss among
themselves any subject coimected with the trial, or form or express any opinion
on the cause until it is submitted to them for deliberation; and (4)not to view

the place where the offense was allegedly committed."(Emphasis added.)

Obviously, the process ofjury deliberation does not continue when the individual
jurors are separated and at home with their families. We believe it is appropriate.

11a

in this context, to make clear that "jury deliberation" is not some uncontrollable
chain reaction—as defendant would have it that, once set in motion, is beyond

the power of the trial court to suspend, control, and circumscribe as the court
reasonably sees fit in the exercise of its discretion. Moreover,"jury deliberation" is
a collective process that necessarily entails communicative interchange amongst the

members ofthe jury.^ Nothing ofrecord in this case suggests that took place in the

courtroom while thejurors were watching the video replay. When the court had the
jury brought back into the courtroom, the court explained: "We do not have an
arrangement to show [the video] to you in your deliberation room." (Emphasis
added.) Implicit in that statement is the understanding that deliberations were
appropriate in that location and no other. The court also advised the jury that it had
"instructed everyone to not say a word." There is no suggestion of record that
anyone did say a word—^not the court, not the attorneys, and not the jurors. More
to the point, there is no suggestion that the jurors communicated amongst
themselves while in the courtroom. In short, deliberations did not take place while
the jury was reviewing the video.
% 26

27

CONCLUSION

Because deliberations were not taking place in this case while the jurors were
watching the video in the presence of non-jurors and there was no communication

with non-jurors, there was no error. We reiterate, with respect to our analysis of
prejudice supra, that this case presents circumstances different from Olano insofar
as the non-jurors in that case—^the alternates—were in the jury room while actual
deliberations were taking place. We note, however, even apart from that
distinction, the Supreme Court,in Olano, did not find the presence of non-jurors in
^"Deliberation" by ajury is a collective process."As Black's Law Dictionary 459(8th ed. 2004)

states, 'deliberation' by a jury refers to 'the process by which a jury reaches a verdict, as by
analyzing, discussing, and weighing the evidence.' See also 89 CJS 425 § 790 (2001)(defining

'deliberation' as 'a collective process, not the solitary ruminations of individual jurors'); 89 CJS
426 § 791 (2001)(noting that premature jury deliberations are improper, in part, because 'they are

likely to involve only a subset of the jury, contrary to the goal of collective deliberations')." State
V. Vega, 139 P.3d 260,263 n.4(Or. 2006). The essence ofjury deliberation is the joint or collective
exchange of views among individual jurors so that the verdict reached is the product of that
collective interchange. See State v. Morgan,84 A.3d 251,259(N.J. 2013).

12a

H 28

the jury room to be plain, reversible error, where no eommunication took place
between jurors and non-jurors.

In sum, we find there was no error. However, even if there were, defendant has
not shown that he was prejudiced by the procedure employed by the circuit court.

For the reasons stated herein, we reverse the judgment of the appellate court and
affirm the judgment ofthe circuit court.

29

H 30

Appellate court judgment reversed.

Circuit courtjudgment affirmed.

13a

APPENDIX - B

APPENDIX B
2019 ILApp(3d)150556

Opinion filed June 20,2019
IN THE

APPELLATE COURT OF ILLINOIS
THIRD DISTRICT
2019

PEOPLE OF THE STATE OF ILLINOIS

Plaintiff-Appellee,
V.

JOSEPH A. HOLLAHAN,

Defendant-Appellant.

)

)

)

)
)
)
)
)

)
)

Appeal from the Circuit Court

of^e 21st Judicial Circuit,
Kankakee County,Illinois,
Appeal No.3-15-0556
Circuit No.09-CF-630
Honorable

Susan S. Tungate,
Judge,Ifresiding.

JUSTICE HOLDRIDGE delivered thejudgment ofthe court, widi opinion.
Justice McDade concurred in the judgment and opinion.
Justice Carter dissented, with opinion.
OPINION

^1

After a jury trial, the defendant was convicted ofaggravated driving while under the

influence ofalcohol(Aggravated DUl)(625ILCS 5/11-50l(aX2),(dXlXA),(d)(2XA)(West
2008)iud sentenced to a one-year term ofimprisonment. He appeals his conviction, arguing
diat the trial court committed reversible error when,in response to the jury's request during

deliberations to view the videotape ofthe defendant's Held sobriety tests for a second time,die

trial court had the jury watch the video in the courtroom while the court,the defendant,the

attorneys for the defendant and the State, and two alternate jurors were present. The defendant
14a

also argues tiiat the trial court improperly assessed a $500 public defender fee under section 113-

3.1 ofdie Illinois Code ofCriminal Procedure(750ILCS 5/113-3.1 (Wrat 2008))without

conducting a hearing on the defendant's ability to pay, as required by the statute, and witihout

giving the defendant proper notice and an opportunity to

12

13

heard on the issue.

FACTS

The defendant was charged by indictment with aggravated DUI,a class4 felony. The

offense was alleged to have occurred in Kankakee on August 29,2009. Private counsel entered
an appearance for the defendant on January 19,2010. However,on October 24,2011,the trial

court appointed a public defender to represent the defendant because the defendant claimed he
had no money.

14

The defendant's first trial ended in a mistrial. His subsequentjury trial commenced on

April 21,2015. Illinois State Police Trooper Timothy Davis was the State's only witness.

Davis testified that, at about midnight on August 29,2009,he was in Kankakee traveling

nordibound on Washington Avenue near Hickory Street when he saw a vehicle ahead of him

start to enter a left turn lane and then jerk back into its lane. The vehicle later stopped at a red

light. At that time, Davis observed diat the vehicle's rear license plate light was not operational
and that the rear license plate had a plastic cover on it. Whoi the stoplight turned green, die

vehicle proceeded northbound, drove onto a double yellow line,then straddled a lane divider

line, and dien failed to yield to a fire hmck that was traveling southbound with its emergency

15

lights flashing.

At that time,Davis effected a traffic stop. Davis testified diat the vehicle did not initially

pull over even though diere was a stretch dong the street where the driver could have done so.

After the vehicle stopped, Davis spoke to die defendant, who was the driver of die vehicle, and to
15a

a passenger who was in the firont seat When he spoke with the defendant, Davis detected a

strong odor ofan alcoholic beverage on the defendant's breath and noticed diat the defendant

had glassy, bloodshot eyes and slightly slurred speech. Davis testified diat die defendant told

him that he had drunk four beers.

16

Davis asked the defendant to perform three field sobriety tests: the Horizontal Gaze

Nystagmus test, the "walk and turn" test, and the "one leg stand" test. The defendant's

performance ofthese tests were recorded on videotape. A redacted version ofdie recotding was

copied to a DVD and played to the jury during the defendant's trial without objection fifom the

defimdant Based on his scoring ofthe defendant's performance on the three field sobriety tests,
and on his observations ofthe defendant's driving and conduct, Davis concluded that diere was

alcohol in the defendant's system and that die defendant was impaired. Davis arrested die

defendant for DUI. Davis stated that, after the defendant was taken to jail, he refused to take a

17

breathalyzer and became belligerent.

Following Davis's testimony,the State introduced an abstract ofthe defendant's driving

record into evidence outside ofthe presence ofthe jury. The abstract showed numerous prior

traffic violations by the defendant, including a suspension ofdie defendant's license in 1998 for
DUI in violation ofsection 1 l-501(aX2)ofdie Illinois Vehicle Code(625ILCS 5/1 l-50I(aX2)

18

(W^t 1998),and another conviction for the same offense in 2000.

The defendant testifi^ that, shortly before he was pulled over by Davis on August 29,

2009, hejerked his car back from the left turn lane because he was giving his passenger a ride to
an unfamiliar address and he realized that he was about to make a wrong turn. He stated that he

did not yield to the fire truck because it had just"whipped" aroimd the comer,giving the

defendant no time to react. The defendant claimed that he pulled over right away when he saw
16a

the police lights. He stated that he refused to take the breadialyzer test at the jail because he was
already under arr^t.

^9

After closing arguments, die trial court instructed the jury on the applicable law. The

court admonished the jurors that"[Ijawyers, parties, and witnesses are not permitted to speak

with you about any subject,even if unrelated to the case, until after the case is over and you are

discharged from your duties as jurora." After the jury instructions, but prior to die start ofthe

jury's deliberations, die trial court informed the jury that die bailiffcould not discuss the case

with the jurors, offer his opinion as to the facts or the law, or demonstrate the use ofany exhibit,

and he admonished the jurors not to ask the bailiff to do any ofthese things.

^10

Thejury then retired to deliberate. Shortly thereafter,the jury asked to watch the

videotape ofthe defendant's traffic stop again. The trial court decided to show the video to the

jury in the courtroom because the court did not have the '^arrangement" necmary to allow die

jury to view die video in the jury room. The court also decided to allow the defendant, die

attorneys for the defendant and the State, and two alternate jurors to remain in the courtroom

while the jury watched the video. The defendant's counsel did not object to diis proc^ure.

Before the jury was brought back into the courtroom,the trial court admonished the defendant,

die attomeys, and the alternate jiuxirs that the jury would be watching the video and that"[n]o

one will have any conversation." After the jury was brought back into the courtroom,the trial

court addressed the jurors, stating;

"Please come in and have a seat, we will not be talking to you other than to get

the video, period. *** The jury has requested to see the video again. We do not
have an arrangement to show it to you in yotu* deliberation room. I have

17a

instructed everyone to not say a word and we will play the video for you. If you
need to have the sound adjusted or anything that we can do,all right?"

% 11

f 12

After watching the vid^,the jury returned to die jury room to resume deliberations. L^s

than an hour later, the jury found the defendant guilty,

During the sentencing hearing, the State asked that the defendant be assessed a $500

public defender fee under section 113-3.1 ofthe Illinois Code ofCriminal Procedure(750ILCS

5/113-3.1 (West 2008)). The trial court imposed the fee requested by die State widiout

conducting a hearing on the defendant's ability to pay such a fee. The trial court sentenced the

defendant to a one-year term ofimprisonment. The defendant filed a timely motion to reconsider
his sentence, which the trial court denied.

^13
% 14

f 15
f 16

This appeal followed.
ANALYSIS

1. Thejury's viewing ofthe video during deliberations
The defendant argues that the trial court committed reversible error when,in response to

the jiuy's request during deliberations to see the video a second time,the trial court had die jury
watch the video in the courtroom while the court, the defendant,the attorneys for the defendant

and the State, and two alternate jurors were present.

% 17

Because the defendant did not object to the procedure employed by the trial court or raise

the issue in a posttrial motion,he asks us to review the issue under the plain error doctrine. The

State argues that plain error review is unavailable here because the defendant "acquiesced to" the

procedure chosen by the trial court, diereby inviting ray error r^ulting fiom that procedure and

forfeiting appellate review ofany such error. As the State correctly notes, where a party

acquiesces in proceeding in a given manner,"he is not in a position te claim he was prejudiced
18a

thereby." Pec^le v. ViUairealy 198 III. 2d 209,227(2001). However,plain-error review is

forfeited only if the defendant invi^ die error or afBrmatively agrees to the ptocohire he later
challenges on appeal. People v. Handing,2012IL App(2d) 101011,f 17.' Merely failing to
object to a procedure proposed by the trial court or by the opposing party does not amount to

invited error.People v. Coan,2016 IL App(2d)151036,f 24(r^^ng the State's invited error
argument where the State tendered the jury instruction at issue and die defendant failed to

object);Harvey,211 111. 2d at 384-87(rejecting the State's ffl^iment that one ofthe defoidants

invite error by failing to object to the use ofcertain evidoice at dial). If die mere failure to

object amounted to invited error, plain error review would never be available and the plain error
rule would be rendered a nullity.

^18

In diis case, although defense counsel failed to object when die video was shown to die

jury in the presence ofthe trial court, the parties and their counsel, and the alternate jurors, he did
not request or expressly agree to that procedure. Accordingly, we may review die procedure

employed by the trial court for plain error.

f 19

In addressing claims oferror under the plain error doctrine, we employ a two-part

analysis. The first step in the analysis is to determine whether a"plain error" occurred. People k
Piatkowski,225 111. 2d 551,564-65,565(2007). The word "plain" here "is synonymous with

'clem'* and is the equivalent of'obvious."'Id. at 565 n. 2. If we determine diat the trial court
committed a clear or obvious(or "plain")error, we then proceed to a second step, which is to

n See also People v. Harvey,211 111. 2d 368,385(2004);Petg>Ie v. Carter,208 111. 2d 309,319
(2003)("Under the doctrine ofinvited mor,an accused may not request toproceed in one manner and

^en later contend on appeal that the course ofaction was in error.")(emph^is ackled);People v. Smitii,

406 111.
3d 879,886-87(2010)("The purpose ofthe invited error doctrine is to prevent a defendant
from unfairly receiving a second trial based on an error which be injected into the proceedings.")
(emphasis added); Viliarreal, 198 III. 2d at 227-28(holding that the def^idant could not attack verdict
forms he submitted at trial on i^rpeal);People v. Patrick,233 111. 2d 62,77(2009)(holding that the
defendant invited the allege error by tendering thejury instraction he later challenged on appeal).
19a

determine whether the error is reversible. Plain errors are reversible only when(1)"die evidence

is so closely balanced that the error alone threatened to tip the scales ofjustice against die

defendant, regardless ofthe seriousness ofthe eiror," or(2)die error is "so serious diat it

affined the fairness ofthe defendant's trial and challenged the integrity ofthe judicial process,

regardless ofthe closeness ofthe evidence."Piaticowski,225 111. 2d at 565;People v. Henon,
215 111. 2d 167,179(2005).

f 20

In diis case,the trial court plainly erred by having thejury watch the video in die

courtroom in the presence ofthe trial court, the prosecutor, the defendant,and defense counsel.

It is a basic principle ofour justice system thatjury deliberations shall remain private and s^^ret

Pwple V. Johnson,2015IL App(3d) 130610,f 17. The primary purpose ofdiis rule is to protect
the jurors from improper influence. United States v. Olano,507 U.S. 725,737-738(1993);

Johnson,2015 IL App(3d) 130610,^17. Accordingly, although the trial court has die discretion
to determine whether to grant a jury's request to review evidence and the manner in which such

evidence may be viewed by the jury {People v. McKMey,2017 IL Aj^(3d)140752,f 16), a

tirial court abuses its discretion ifallows the jury to review evirtonce in a manner that results in an

improper influence upon the jury's delib^tions(see Olano,507 U.S. at 738(internal quotation

omitted); McKinley,2017 IL App(3d)140752,f 16). Courts review an improper intrusion uiwn

jury deliberations for its prejudicial impact {Johnson,2015 IL App(3d) 130610,^ 17-19)md
vtill reverse only ifthe intrusion "afrect[ed]the jury's deliberations and thereby its verdict"

{Olano,507 U.S. at 738). An improper intrusion upon jury deliberations by a third party is

prejudicial when it impedes or inhibits the jurors' deliberations. See,e.g., Olano,507 U.S. at

738(noting that the presence ofalternate jurors in toejury room during juror deliberations could

20a

prejudice the defendant ifthe presence ofthe alternates "exert[s]a chilling effect" on the jurors

f 21

or "operate[s] as a resttaint upon the regular jurore' freedom ofexpression and action").

The presence ofthe trial court,the defendant,the prosecutor,and defense counsel during

jury deliberations in this case clearly inhibited the jurors* deliberations and retrained their

freedom ofexpression and action. As Justice McDade correctly noted in her dissent in Johnson,

"it is hard to imagine a more intrusive, more chilling presence in the deliberations than die

ofqiosing parties—the defendant with his attomey and the State in the person ofthe State's
Attom^r—and the trial judge." Johnson,2015IL App(3d) 130610,f49(McDade,J.,

dissenting). The State's attomey,the defendant, and die defendant's counsel ^ch has a direct
interest in the outcome ofdie litigation. Moreover,the trial court serves as an audioritative

figure who presides over the litigation. The presence ofdi^ parties during jury deliberations is
inherently intimidating to jurors and would almost certainly have inhibited their deliboations

while the video was being played. It is extremely unlikely that any juror would have felt fi^to

discuss die details ofdie video and its possible impact on his or her decision in the presence of

diese parties. Johnson,2015IL App(3d) 130610,K 52(McDade,J., dissenting)(noting that

jurors would have felt inhibited from discussing a video played in the presence ofdie prosecutor,
die defendant, and defense counsel for fear diat any discussion ofdie video "may result in

criticism ofjudgment from the[se] non-neutral parties and counsel"); see also id 153(McDade,
J., dissenting)("It is naive

to assume that a normal citizen/juror is not somewhat nervous

when attempting to carry out[his or her] fact-finding fimction in the presence ofthejudge"

^ 22

during deliberations).

Any reasonable doubt on this question was removed by the trial court's statement to the

jury in this case. After the jury was brought back into the courtroom to watch the video in die
21a

presence ofthe parties and their counsel, thejudge made the following statement to diejury:"I
have instructed everyone to not say a woid and we will play the video for you. If you need to

have the sound adjusted or anything that we can do, all right?" This statement conveyed several

thinp to the jury. First, it suggested that no one(including any juror) was to speak while the

video was being played. Although the trial court did not explicidy bar the jurors fiom speaking,

the coiut's statement to the jury created the impression that the video would be played in silence,
and the court did not explicitly give the jurors permission to break diat silence by discussing die
vid^ while it was being played. In addition, the trial court's statement informed the jurors that

di^ would not have the ability to control the playing ofdie video. The dial court told diejury

that"we will play the video for you" and suggested that"we"(not thejurors themselves)could

adjust the sound if necessary. The court did not give die jurors the opportunity to pause die
video or replay any parts they might have wanted to view or discuss in greater detail. This

iiirdier inhibited the jury's deliberative process. In sum,die procedure employed by the trial

court effectively precluded the jurors from engaging in any deliberations while the video was

being shown and likely limited their ability to focus sufficiendy on the particular portions ofthe

f 23

video that gave them concern,

We acknowledge that om appellate court has declined to find reversible error under

simibu'circumstances in three prior decisions. See,e.g.y People v. Lewis,2019IL App(4th)
150637-B,

97-100(finding no error where the trial court allowed a 911 recording to be

replayed for the jury in the courtroom in the presence ofthe puties during deliberations);

Johnson,2015 IL App(3d)130610,

20-21 (finding no prejudicial error where the trial court

refused to allow the jury to take a surveillance vidoitape into the jury room and instead had the

jury review the video in the courtroom during deliberations in the presence ofthe judge, die
22a

defendant,the State's attorney,and defense counsel);People v. Rouse,2014II App(1st) 121462,

f|78-79(finding no eitor where the trial court allowed the jury to view surveillance footage in

Ae presence ofboA parties and Ae Maijudge during deliberations),^ We find Aose decisions to

be wrongly droided and we declme to follow Aem. A findmg no error m Johnson and Rouse,

our appellate court relied principally upon Ae fwjts that;(1)Ae third parties who were present
when Ae video was replayed for Ae jury were instructed not to conununicate wiA Aejurors

while Ae video was bemg played {Johnson,2015IL App(3d)130610,f 20), wid Aey made no

attempt to do so {id.; see also Rouse,2014IL App(1st) 121462,f 79); and(2)after reviewing

Ae vi^o m Ae courtroom, Ae jurors returned to Ae jury room where Aey resinned private and

unfettered deliberations{Johnson,2015 IL App(3d) 130610,f 20;Rouse,2014 IL App(1st)

121462,\79). However,neiAer of Aose facts eliminated or mitigated Ae prejuAcial impact

i^n deliberations Aat occurred while thejurors were viewing the video. In each case, Aejurors
had no opportunity to discuss the video as they were viewing it or to pause or replay any portions

ofthe video that Aey found of particular importance. (Indeed,\n Rouse, Ae trial court instructed

Aejury that Aey court not engage m any deliberations or have any Ascussions about what Aey
were watehing while Ae recordmg was played.) Accordingly, m each case,the procedure

employed by Ae Mai court directly impeded Aejury's deliberations. The mere fact Aat Aejury
could have discussed Ae video later in Aejury room is immaterial. In each case, Aejury was

^ In McKiniey,a majority of Ae court found that Ae Mai court err^ by allowmg Ae prosecutor,
Ae defendant,defense counsel, and Ae bailiffto be present while Aejury viewed a videot^ during its
deliberations. McKiniey,2017 IL App(3d) 140752, 32-36(O'Brien,J., specially concurring);id
38-44(Holdridge, J., Assenting). However,Ae defendmt failed to raise Ae issue before Ae Mai court,

and Justice O'Brien found that Ae Mai court's error Ad not rise to die level ofreversible plain error. Id.f

36(O'Brien,J., specially concurring). Justice Carter found no error {JdcKinley,2017 IL App(3d)
140752 22-23)and no reversAle plain error {id.f 25-27). AccorAngly, Ae majority affirmed Ae
defendant's conviction in McKiniey.

23a

prevented fiom controlling the video, ftom freely discussing it, and from debating any issues

relating to the video while they were watching it.
124

Moreover,oiu appellate courts' decisions in Lewis,Rome,and Johnson fail to

acknowledge that the ma% presence ofthe trial judge,the parties, and their attorneys during jury
deliberations improperly intrudes upon the privacy ofjury deliberations and has an inherently

intimidating and inhibiting effect upon such deliberations. See Johnson,2015IL App(3d)

130610,152(McDade,J., dissenting); McKMey,2017 IL App(3d)140752,If 32-35(O'Brien,

J.,specially concuning). Such intrusions on the jurors' ability to freely discuss and debate the

evidence should be deemed presumptively prqudicial. See Olano,507 U.S. at 739

(acknowledging that "[tjhere may be cases" where m intrusion ^pon jury deliberations by third
parties "should be presmned prejudicial," and ruling that such intrusions are prejudicial when

they "exert[] a chilling effect" on the jurors or "operate as a restraint upon tiie regular jurors'

freedom ofexpression and action."(Internal quotation marks omitted); see also Johnson,2015 IL

125

App(3d)130610,K 52(McDade,J., dissenting).^

In Johnson and Lewis,our appellate court suggest^ that rq>laying a video or audio

recording for the jury during deliberations in the presence ofthe parties, their counsel, and the
trial court was not prejudicial error because tiiejury had already reviewed the recording under

identical circumstances during the trial. Johnson,2015 IL ^ip(3d) 130610,f 20;Lewis,2019
^ In Olano,the United States Suprane Court declined to prraume prejudice where two dtemate

jurors were present throughout the jury's deliberations but diere was no showing diat the alternate jurors
either participated in or"chilled" thejury's deliberations. Olano,507 U.S. at 739. However, Olano is
distinguishable. The alternate jurors in Olano were neutral, disinterrated parties who were
"indistinguishable from the 12 regularjurors" until the close oftrial. Id. at 740. The third parties who
were present during the jury deliberations in this case were very different. The parties and their counsel

had a direct interest in the outcome ofthe case, and the trial court was an authoritative, intimidating figure
who was not a finder offact and did not share the same standing as the jurors. See Johnson,2015 IL App

(3d)130610,^ 50(McDade,J., dissenting). Accordingly,the fflgun^ntfor presuming prejudice in this
case is far more compelling dian it was in Olano.

24a

IL App(4th) 150637-B,f 98. In Lewis,our appellate court wait so^as to state Aat"[w]hen a
deliberating jury returns to the courtroom and, in the presence ofthe judge,the parties,the

lawyers,and court personnel listens again, in silence,to an audio recording, thejury does

ttotbing diff&mt&om whatit did before, when the recording originally wasplayed." Lewis,

2019 IL App(4th) 150637-B,f 98. However,a jury's viewing ofa video recording during trial

is critically dififaent from its viewing ofthat same recording(hrring deliberations. Unlike public
trials,jury deliberations must occur in privacy and secrecy. Johnson,2015 EL App(3d)130610,

f 17. Once deliberations begin,the jurors must be shielded from any outside influences that

impitq^ly impede or inhibit their deliberations. Olano,507 U.S. at 737-738;John&m,2015 IL
App(3d)130610,H 17. If a trial court fails to protect thejurors fix)m such influences(as in this

caseX it commite reversible error. Olano,507 U.S. at 738;Johnson,2015 IL App(3d) 130610,
% 26

H n-19.

Our appellate court has also suggested that the trial court's authority to allow a

deliberating jury to review audio or video evidence in the presence ofthe parties, their attorneys,

and the trialjudge flows directly from the trial court's discretion to manage its courtroom.

McKinley,2017 IL App(3d) 140752,f 22("die mode ai^ manner in which a circuit court

allows a jury to review a piece ofevidence ***[such as a video recording] fells directly widiin
die scoftt ofdie court's inherent authority to control its courtroom"); see also Lewis,2019 IL
App(4th) 150637-B,f 99. We disagree. Although a trial court graerally has discretion to

determine whether to grant a jury's request to review evidence and the mode and manner in

which such evidence may be viewed by the jury, the court abus<» its discretion and commits

reversible error if it allows diejury to review evidence in a manner that improperly inhibits the

jury's deliberations. Olano,507 U.S. at 738(internal quotation omitted); see also McKinley,
25a

2017IL App(3d)140752,f 41 (Holdridge, J., dissenting); see generally McKMey,2017IL App
(3d)140752,116.

127

In Lewis,our appellate court also ruled that "[ajllowing a deliberatingjury to listen to a

recording again in the corutroom instead ofthe Jury room avoids problems widi equipment and
die skills necessary to operate the equipment" *** "and also minimizes the risk of breakage or

the erasure ofthe recording." (Internal quotation marks omitted.) Lewis,2019 IL App(4th)

150637-B,197. For this reason,among the other reasons discussed above,die Lewis court ruled

categorically diat allowing the Jury to hear a recording a^iin in the cointroom during

deliberations in the presence ofthe parties, their counsel, and the trial Judge is not prejudicial

error(provided that the Jury has been instructed not to deliberate during the playing ofthe

recording ami the third parties are instructed not to communicate widi the Jurors or otherwise

influence diem). Id.("we now reject outright the argument that this procedure is *** erroneous,
let alone structurally erroneous"); see also id at 199("we conclu^ that ifa Jury,during its

deliberations, requests to see or hear a recording again, the trial coint need not send the recording

and equipment into the Jury room but instead may,in its discretion, have die Jury brought back

into die coiutroom for a replaying ofthe recording"). The Lewis court furdier ruled that,"ifthe
court chooses to have die recording replayed in the courtroom, die court, parties, mid counsel

must be present to view or hear the evidence, and the court should instruct the Jury not to discuss

the evidence while in the courtroom." Id We find these rulings in Lewis to be both erroneous

mid troubling. As an initial matter, we find it difficult to believe that, with all ofthe digital and

other "user-friendly" technology currendy available(such as laptop computes and tablets, to

name only a few), a trial court cannot arrmige for the Jury to view video or audio evidence in the

Jury room without risking the destruction ofevidem^e or other technical difficulties. The fact that
26a

this problem recurs so often in this State is inexplicable. In our view,if a trial court decides to

grant a jury's request to review audio or video evidence during deliberations, die only acceptable

practice is to arrange for the jury to view the evidence at issue in private, preferably by bringing

a laptop,tablet, or some similar device into the jury room, ITie Lewis court's ruling will make

that I^ likely to occur.

f 28

But even if, for some reason,a video or audio recording must be played for a deliberating

jury in the courtroom,the jury should view the video in private, not in the presence ofthe parties,
tiieir attorneys, or the trial judge. In ruling otherwise, the Lewis court fqipeared to assume that

anything that occurs in the courtroom,even jury deliberations,is a "court proceeding" requiring

the presence ofthe judge and the parties. See Lewis,2019IL App(4th) 150637-B,f 99. We

disagree. As noted above,jury deliberations must be conducted privately and in secret so as to

insulate the jury ftom improper influence. Olano,507 U.S. at 737-38. The parties have no right

to be present for such deliberations, regardless of where they occur. The mere fact that a portion

ofjury deliberations occurs in the courtroom does not transform those deliberations into a public
trial proceeding. See generally People v. Gore,2018II App(3d)150627,^33-35 (ruling that a

criminal defendant's right to a public trial does not apply to a portion ofthe proceedings wherein
die trial court answers questions posed by thejury during deliberations); see also State v.

Magnano,326 P.3d 845,851(Wash. App.2014)(trial court did not violate the defendant's

public trial right when it closed the courtroom while a 9-1-1-recording was replayed to the jury

during jury deliberations in order to protect the secrecy ofthe jury's deliberations). Nor does it
entitle the defendant or any other third party to be present during those deliberations. The

defendant has the right to be present and to participate in any communication between the trial

judge and tiie jury that occurs after deliberations have begun. People v. Coieman,391 111. App.
27a

3d 963(2009). This includes the right to be present for any arguments as to whether die trial

court should grant a deliberating jury's request to review video or audio evident^. Howevo*,

once a trial court decides to grant the jury's request,the jury should be allowed to view any such

evidence in private because the viewing constitutes a part ofthe jury's deliberations. The

f 29

defendant has no right to be present at that time,

Moreover, we find that die procedure employed by the trial coturt in this case amounted to

structural error, and is dierefore reversible under the plain error doctrine. A structural error is

"a systemic error" which serves to "erode the integrity ofthejudicial process and undermine the
&imess ofdie defendant's trial." (Internal quotation marks omitted.) Pe(^le v. Tbomfmrn^ 238

111. 2d 598,613-14(2010)."An error is typically designated as structural only if it necessarily

renders a criminal trial fimdamentally unfair or an unreliable means of determining guilt or

innocence." Thompson,238 111. 2d at 609; see also People v. Headerson,2017IL App(3d)

150550,f 47;People v. Matthews,2017 IL App(4th) 150911,f 43. As noted above,the

presence ofthe parties, their attorneys, and trial judge duringjury deliberations was inherendy

intimidating and necessarily impeded or inhibited the jurors' fiee discussion and deliberation as

the video was being shown to them. This inhibiting effect upon the jurors' deliberations was

exacerbated by the trial court's assertion ofcontrol over die playing ofthe video and by its

stetement to the jury, which suggested that die jurors were not free to talk as the video was t^ing

play^. Anything that intrudes upon the privacy ofjury deliberations and impedes or inhibits

impc^ the jurors' fioedom ofexpression and action during deliberations in this manner renders
die trial an unreliable means ofdetermining guilt or innocence. We decline to follow prior

decisions ofour appellate court diat hold or suggest odierwise.^

* In finding no structural error under circumstances similar to those prraented here,our appellate
court cited Thompson for the proposition that structural errors have been found "only in a limited class of
cases" and suggested that only the six types oferrors expressly referoiced in Tbomps(m may be
28a

f 30

The dissent corr^tly notes that an intrusion into a jury's deliberations constitutes

reversible error only ifthe defendant is prejudiced by die intrusion. Infraf 40. However,die

dissent assumes that a defendant may establish such prejudice under the circumstance preented

in this case only by showing either that:(1)one ofthe non-jurors that was present during die

jury's deliberations "engaged in a prejudicial communication with [a]juror about a matter

pending before the jury"; or that(2)"improper extraneous information reached die jury." btSnf

40. We disagree. As shown above,the mere presence ofdie trial judge,the parties, and their

attomeys during jury deliberations improperly intrudes iqion the privacy ofjury deliberations and
has an inherently intimidating and inhibiting effect iqion such deliberations. Such intrusions on

die jurors' ability to freely discuss and debate the evidence should be deem^ presumptively

{Mtijudicial(See Olano,507 U.S. at 739),regardless of whedier they involve any express

communications or the transmission of"extraneous information." Moreover,the prejudice

created by the presence ofthe trial judge,the parties,fmd their attorneys during jury deliberations
was compounded in this case by the trial judge's comments to thejurors and the procedure

subsequendy employed by the court, both of which effectively denied the jury the ability to

control the video, to comment on any portion ofthe video, or to deliberate about what they were

watching as the video was being shown. This impeded die jury's deliberations on a matter of

obvious concern to the jury,thereby prejudicing die defendant. Accordingly,the trial court
committed reversible error.

^31

2. The Public Defender Fee

considered sUuctural. Mattbem,2017IL App(4th) 150911,fl 43-44. However,in People v. Claik,

2016IL 118845,f 46 our supreme court not^ diat it1^ not resUicted sbuctural plain error in this
manner. See also People v. Sanders^ 2016 IL App(3d) 130511,
29a

16-17.

f 32

The defenchmt also argues that the trial court erred by assessing a $500 public defeiuler

fee under section 113-3.1 ofthe Illinois Code of Criminal Procedure(750ILCS 5/113-3.1 (West

200))without conducting a hearing on the defendant's ability to pay that fee,as required by die

statute, and without providing him with adequate notice that it planned to assess such a fee. The

defendant contends that, if this court affirms his conviction, it should vacate the public defender

fee outright. The State confesses error on this issue but argu^ dmt we should renmid for a
hearing on die defendant's ability to pay die public defender fee rather than vacate die fee

outright Because we are reversing defendant's conviction and remanding for a new trial, we
need not address whether the public defender fee imposed as a part ofdefendant's sentence

should be vacated, with or without a hearing on remand.

f33
^ 34

CONCLUSION
For the reasons set forth above, we reverse the judgment ofdie circuit court ofKankakee
County and remand for a new trial,

f 35

Reversed; cause remanded.

^ 36

JUSTICE CARTER,dissenting.

f 37

I respectfully dissent from the ruling and analysis expressed in the majority opinion in the

present case. I would find that defendant has failed to establish that eidier error or plain error

occurred here. See People v. McLaunn,235 111. 2d 478,497(2009)("[T]he key question in

determining whether an 'intrusion' into the jury room constitutes error is whether the defendant

was prejudiced by the intrusion.");Johnson,2015IL App(3d)130610,f 19("[W]e review

f 38

outside jury intrusions for prejudicial impact."),

The issue of whether evidentiary items should be taken to jury room during deliberations

is a matter within the discretion of die trial court, and the trial court's decision on the matter is
30a

not reversed absent an abuse of discretion to the prejudice ofthe defendant P&^le v. Williams,

97 111. 2d 252,292(1983). Similarly, the mode and manner in which a trial court allows ajury to

review a piece ofevidence during jury deliberations falls within the scope ofthe court's inherent
authority to manage its courtroom and is a matter ofthe court's discretion. McKinley,2017IL

App(3d)140752,H 22. See also Lewis,2019IL App(4th) 150637-B, 97(holding tihat where a

deliberating jury requests to have mi audio or video recording played again,die trial court has
discretion to either send die evidence to the jury room or bring the jury into the courtroom to

play the recording); Rouse,2014 IL App(1st) 121462,^ 78(holding that it was within the trial

court's discretion to allow the jury to view a video recording in the presm^ of both parties and
the judge).

^ 39

Here,defendant essentially argues that the mode and mannmr in which the trial court

allowed the jury to view the video constituted error because die presence ofdie judge,the

attorneys, the defendant, and the two alternate jurors had a chilling effoit on jury deliberations.

Defendant's claim that the jury was exposed to improper infonnation or influence is comparable

to the body oflaw regarding impeachment ofa jury verdict A jury verdict may not be

impeached by an affidavit or testimony from a juror regarding the motive, method,or process by
which the jury reached its verdict. See,e.g..People v. Hobley, 182 111. 2d 404,457(1998).

However,ajury verdict may be impeached based on evidence ofimpropor extraneous influences

on the jury.Id. at 458. Where a defendant seeks to impeach ajury verdict based on mi outside

influence or communication,reversal is not wairanted unless the defendant was prejudiced. See

id.;People v. Harris, 123 111. 2d 113, 132(1988);People v. Holmes,69 111. 2d 507,514-19

(1978);People v. Willmer, 396 111. App.3d 175,181 (2(X^);P&rple v. Collins, 351 111. App. 3d

175,179(2004). See also P&)ple v. Kuntu, 188 111. 2d 157,162(1999)(holding that a letter sent
31a

from ajuror to a state's attorney alfter the trial indicating that thejuror had a personal relationship
widi the state's attorney was not conclusive evidence diat Uie defendant's right to a fair trial had

been prejudiced);Parker v. Gladden^ 385 U.S. 363,365(1966)(holding tfiat reversal was
warranted where a bailifftold jurors that the defendant was guilty because die bailiffs

shitements were prejudicial and violated the defendant's constitutional rights).

f40

Generally, a rebuttable presumption of prejudice arises when a defenduit shows that a

diird puty has communicated with a juror about a matter pending before the jury or that the jury
has been exposed to improper extraneous information diat relates dir^tly to something at issue

in the case that may have influenced the verdict. Harris, 123 111. 2d at 132; Collins,351 111. App.

3d at 179-80; Willmer,396 111. App. 3d at 181. While allegations ofprejudicial outside

influences are suffrcient to raise a presumption of prejudice and shift the burden to the Shite,
allegations that ajuror"may have been exposed to extraneous information ofan unknown

nature" are not sufficient to raise a presumption ofprejudice.P&jple v. Williams,209 111. 2d 227,

242(2004). When a defendant has made a showing sufficient to raise a presumption ofprejudice,

the State may rebut the presumption by showing that the in^re^ier communication or extraneous
information was harmless. Harris, 123 111. 2d at 132;Hobley, 182 111. 2d at 462; Collins,351 111.

App. 3d at 179-80. However, when the issue is unpi^erved—as in the instmit case—the burden

ofestablishing prejudice remains on the defendant and does not shift to the State. McLaurin,235
111. 2d at 497-98. See also Olano,507 U.S. at 740-41.

^41

Applying the above principle to die instant case,die defendant has not shown that either

the trialjudge,the attorneys, the defendant, or the alternate jurors engaged in a prejudicial
communication with any juror about a matter pending before die jury or diat improper

extraneous information reached the jury. At most,defendant has shown that the procedure the
32a

court employed to play the video during jury deliberations created a situation where it was

possible for one ofthose persons to have an improper communication widi diejury. The mere

possibility ofan improper communication, however,is insufficient to show that defendant was

prejudiced. As such,I would find diat defendant has not shown that the court abused ilts

discretion by using the procedure which it followed in the present case. Widi all due respect,I

believe die majority's position on this issue is a radical departure from the traditionai way

reviewing courts have treated questions involving die integrity ofjury deliberatioiis.

^42

I recognize that 1 concurred in thejudgment and opinion in Heod&sm^ 2017IL App(3d)

150550,f 46,in which we held that error occurred where the trial court allowed the jury to

review evidence in the presence of an employee ofthe State's Attorney's office and a court

bailiff. Id. Upon further consideration of this issue,I do not believe that the presence ofdie

employee ofthe State's Attorney's office and the bailiff, without more,showed that defendant
was prejudiced. However,I would still find that error occurred in Hmdeison because die trial

court failed to consult the parties regarding the jury's request to review the evidence or the mode
and manner in which the court would allow the evidence to be reviewed.

33a

